TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Report on Audit of Budget System Review



                                         September 2005

                             Reference Number: 2005-1C-173




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE


 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Budget System Review (Audit # 20051C0239)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s budget and planning
 system as of March 21, 2005, to assure that the contractor’s budget and planning system and
 related internal controls comply with applicable laws and regulations and are operating
 effectively. Test procedures were applied from October 1, 2004, through March 21, 2005.
 According to the DCAA, the contractor’s budget and planning system and related internal
 control policies and procedures are adequate. However, during the course of its examination, the
 DCAA noted other matters involving the budget and planning system and related internal
 controls which, although not considered to be significant deficiencies at this time, the DCAA
 believes should be communicated to management. These matters are detailed in the
 “Suggestions to Improve the System.”
 The DCAA examined only the budget and planning system. Accordingly, the DCAA expresses
 no opinion on the contractor’s system of internal controls taken as a whole.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
 If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
 (202) 927-7077.


 Attachment
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
